<html>
<title> - THE AMERICAN ENERGY INITIATIVE, PART 21: A FOCUS ON THE NEW PROPOSAL BY THE ENVIRONMENTAL PROTECTION AGENCY TO TIGHTEN NATIONAL STANDARDS FOR FINE PARTICULATE MATTER IN THE AMBIENT AIR</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
THE AMERICAN ENERGY INITIATIVE, PART 21: A FOCUS ON THE NEW PROPOSAL BY 
 THE ENVIRONMENTAL PROTECTION AGENCY TO TIGHTEN NATIONAL STANDARDS FOR 
               FINE PARTICULATE MATTER IN THE AMBIENT AIR

=======================================================================


                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2012

                               __________

                           Serial No. 112-157


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
81-303                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               KATHY CASTOR, Florida
GREG WALDEN, Oregon                  JOHN P. SARBANES, Maryland
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan
MICHAEL C. BURGESS, Texas            EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         ELIOT L. ENGEL, New York
STEVE SCALISE, Louisiana             GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
PETE OLSON, Texas                    MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     CHARLES A. GONZALEZ, Texas
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
H. MORGAN GRIFFITH, Virginia
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     4
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    91

                               Witnesses

Mark Herbst, Executive Director, Long Island Contractors 
  Association, Inc., on Behalf of American Road and 
  Transportation Builders Association............................     9
    Prepared statement...........................................    11
Brad Muller, Vice President of Marketing, Charlotte Pipe and 
  Foundry Company................................................    17
    Prepared statement...........................................    19
Tee Lamont Guidotti, Medical Advisory Services, Inc., on Behalf 
  of American Thoracic Society...................................    30
    Prepared statement...........................................    32
Peter A. Valberg, Principal, Gradient Corporation................    44
    Prepared statement...........................................    46
Collin O'Mara, Secretary, Department of NERC, State of Delaware..    51
    Prepared statement...........................................    54
Anne E. Smith, Senior Vice President, NERA Economic Consulting...    58
    Prepared statement...........................................    60
Jeffrey R. Holmstead, Partner, Bracewell and Giuliani, LLP.......    78
    Prepared statement...........................................    80

                           Submitted Material

Statement, dated June 28, 2012, of American Forest & Paper 
  Association and American Wood Council, submitted by Mr. Walden.    93


THE AMERICAN ENERGY INITIATIVE, PART 21: A FOCUS ON THE NEW PROPOSAL BY 
 THE ENVIRONMENTAL PROTECTION AGENCY TO TIGHTEN NATIONAL STANDARDS FOR 
               FINE PARTICULATE MATTER IN THE AMBIENT AIR

                              ----------                              


                        THURSDAY, JUNE 28, 2012

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Bilbray, 
McKinley, Griffith, and Rush.
    Staff present: Anita Bradley, Senior Policy Advisor to 
Chairman Emeritus; Maryam Brown, Chief Counsel, Energy and 
Power; Allison Busbee, Legislative Clerk; Andy Duberstein, 
Deputy Press Secretary; Cory Hicks, Policy Coordinator, Energy 
and Power; Heidi King, Chief Economist; Mary Neumayr, Senior 
Energy Counsel; Alison Cassady, Democratic Senior Professional 
Staff Member; Caitlin Haberman, Democratic Policy Analyst; and 
Alexandra Teitz, Democratic Senior Counsel, Environment and 
Energy.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call this hearing to order 
this morning. We are on our 21st day of hearings on the 
American Energy Initiative. Over the course of this hearing we 
have heard expert testimony on a wide variety of issues and 
also problematic EPA rules. Many of these new and proposed 
measures we believe threaten to impose high costs and possible 
job losses on the American people.
    Quite a few are part of EPA's, in my view, bias against 
coal. Each new rule adds to the unknown cumulative impact of 
the multitude of rules that have come out of EPA, many of which 
are the result of litigation and settlement agreements, and I 
personally do not believe that is the way to develop 
environmental policy through litigation and settlement 
agreements.
    However, today we are going to be discussing the proposed 
National Ambient Air Quality Standards for Fine Particulate 
Matter. Specifically, EPA's proposal calls for ratcheting down 
the already stringent annual standard for fine particulate 
matter set in 2006.
    The new 2006 standard hasn't even been fully implemented 
yet. Indeed, this committee recommended in a recent letter to 
EPA and requested that the agency consider retaining the 
current standard, but they, I think, have ignored this 
suggestion.
    I might add that particulate matter has many natural 
sources as you well know, such as forest fires, windblown dust, 
volcanoes, and even sea spray. Even the EPA admits that 
background levels can approach the agency's existing standards 
and on occasion exceed them.
    Among the manmade sources of fine particulate matter are a 
wide variety of activities such as driving a car, running a 
factory or power plant, farming, and even household fireplaces 
and backyard barbeques. And it is precisely because fine 
particulate matter comes from so many different sources and 
activities that EPA's proposed rules would be costly and 
intrusive.
    In fact, in order to achieve earlier particulate matter 
standards, the agency even issued standards, for example, for 
wood stoves. One could only imagine how many different 
activities would be impacted by the more-stringent proposed 
rule.
    It is also important to note that when we are talking about 
the cost of the proposed Fine Particulate Matter Standard it is 
not just a matter of dollars and cents. The cost can also be 
measured in terms of damage to public health and safety. For 
example, roadwork is a source of particulate matter emissions, 
and EPA's proposal can make it harder to undertake the kind of 
projects that make our roads and highways safer, and we all 
know that we have a dire infrastructure problem in America 
today, and we need to be improving our public infrastructure 
needs.
    And, of course, we are also talking about regulations with 
the potential to be an obstacle to job creation, and we need to 
take into account the very serious adverse health implications 
of unemployment.
    As costly as the new Fine Particulate Matter Standard would 
be in isolation, we also must be mindful of all the other new 
and proposed rules that will also apply to many of the same 
sources and activities. In other words, the cumulative impact 
of the multitude of rules coming out.
    Whether it is a domestic manufacturer struggling to remain 
globally competitive or a coal-fired power plant owner facing 
costly upgrades in order to remain in compliance, we have to 
consider the cost of EPA's Fine Particulate Matter Proposal in 
the context of Utility MACT, Cross-State Air Pollution Rule, 
Boiler MACT, ozone standards, greenhouse gas regulations, and 
all others.
    I should note that reductions in air pollution are an 
environmental success story. We all are proud of the fact that 
we have a much cleaner air today than we have had in the past, 
but I think realistically we also need to ask the question at 
what point do you get to a point of diminishing returns.
    We have a great panel with us today, and you all have great 
expertise in this area, so we look forward to your testimony 
and your thoughts on this subject as well.
    [The prepared statement of Mr. Whitfield follows:]


    [GRAPHIC] [TIFF OMITTED] 81303.001
    
    [GRAPHIC] [TIFF OMITTED] 81303.002
    
    [GRAPHIC] [TIFF OMITTED] 81303.003
    
    Mr. Whitfield. And at this time I would like to recognize 
the gentleman from Illinois, Mr. Rush, for a 5-minute opening 
statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman. We are here 
today to discuss the EPA's proposal to revise the National 
Ambient Air Quality Standards for Fine Particulate Matter. As 
have been the routine since the beginning of this Congress, the 
majority side has invited witnesses who will testify on the 
burdens associated with implementation of the proposed revised 
standards, while the minority side has invited guests to speak 
on the health impacts associated with particulate matter and 
why the science informs us that these standards are necessary 
to protect our most vulnerable constituents.
    Of course, this hearing is taking place amongst the 
backdrop of today's--of Tuesdays' unanimous DC Circuit Court of 
Appeals decision to uphold four greenhouse gas regulations 
which delivered a huge moral and practical victory for the EPA 
and its actions. We will dig much deeper into the impacts of 
the Court's decisions on that case tomorrow when we will have 
the EPA Assistant Administrator for Air and Radiation, Gina 
McCarthy, testify before the subcommittee.
    But, Mr. Chairman, as far as today's hearing it is 
important to recognize how we got to this point. Mr. Chairman, 
we know that in mid-June the EPA released a proposal for 
lowering the fine particulate standards from 15 micrograms per 
cubic meter average over a year to between 12 and 13 
micrograms, while retaining the current daily standard and the 
same standards for core particulate particles. EPA did not 
choose to address this proposal in a willy-nilly fashion or 
without cause, but Mr. Chairman, I must remind you that that 
were legally forced to issue this proposal after several States 
and public health groups challenged the agency for missing an 
October, 2011, deadline for releasing the new standards. That 
lawsuit came about after a Federal Court threw out the 2006, 
standards on the grounds that they were insufficient for 
protecting the public health.
    Let me repeat. They threw out the 2006 standards on the 
grounds that they were insufficient for protecting the public 
health. In fact, Mr. Chairman, the science is clear that the 
EPA must strengthen the national air quality standards for 
particle pollution, which is made up of microscopic specks of 
soot, metals, acid, dirt, pollen, mold, and aerosols that are 
tiny enough to inhale and lodge deep in the lungs where they 
can cause serious damage. And the American Lung Association 
informs us breathing these particles can trigger asthma 
attacks, increase the risk of heart attacks and strokes, damage 
lung tissue and airways, increase hospital visits for 
respiratory and cardiovascular problems, and even cause death.
    The science also informs us that children, teens, senior 
citizens, people with low incomes, and people with chronic lung 
disease such as asthma, chronic bronchitis, and emphysema are 
especially at risk for being sickened by these particles.
    Mr. Chairman, the Court ruled that EPA must propose a 
standard by June 14 and gave the agency until December 14 to 
finalize the rule after first holding public hearings which are 
set to begin in July.
    So, Mr. Chairman, we are here today in a very familiar 
position, where the majority and industry representatives 
arguing that these rules are too burdensome on industry and 
will cause jobs, while the minority side will stand by the 
science and those who argue that these rules will protect our 
most vulnerable citizens and will save lives.
    Mr. Chairman, we acknowledge that you are the majority. 
However, Mr. Chairman, the majority does not possess the power 
to hold back the night. You cannot delay or deny the 
inevitable.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Whitfield. Thank you, Mr. Rush, and at this time I 
would like to introduce the members of the panel. We once again 
appreciate all of you being here, and we look forward to your 
testimony. We have with us today Mr. Mark Herbst, who is 
Executive Director of the Long Island Contractors Association, 
who is testifying on behalf of the American Road and 
Transportation Builders' Association. We have Mr. Bradford 
Muller, who is Vice President of Marketing for the Charlotte 
Pipe and Foundry Company. We have Dr. Tee Guidotti, who is a 
Medical Advisory Services Inc., he is with them, and he is 
testifying on behalf of the American Thoracic Society. We have 
Dr. Peter Valberg, who is Principal in Environmental Health 
for--at the Gradient Corporation. We have Mr. Collin O'Mara, 
who is Secretary for the Department of NREC for the State of 
Delaware. We have Dr. Anne Smith, who is Senior Vice President 
of NERA Economic Consulting, and then we have Mr. Jeffrey 
Holmstead, who is a partner with Bracewell and Giuliani.
    So welcome once again to all of you, and I am going to 
recognize each one of you for a 5-minute opening statement, and 
at the end of that time then we will have some questions for 
you, and I would just note that on the table there are two 
little boxes, and when your time has expired, the little red 
light will come on, and we are not going to cut you off 
immediately, but if you go to 8 or 9 minutes, we might. So, 
anyway, thank you for being with us, and Mr. Herbst, you are 
recognized for a 5-minute opening statement.

  STATEMENTS OF MARK HERBST, EXECUTIVE DIRECTOR, LONG ISLAND 
 CONTRACTORS ASSOCIATION, INC., ON BEHALF OF AMERICAN ROAD AND 
    TRANSPORTATION BUILDERS ASSOCIATION; BRAD MULLER, VICE 
PRESIDENT OF MARKETING, CHARLOTTE PIPE AND FOUNDRY COMPANY; TEE 
LAMONT GUIDOTTI, MEDICAL ADVISORY SERVICES, INC., ON BEHALF OF 
    AMERICAN THORACIC SOCIETY; PETER A. VALBERG, PRINCIPAL, 
 GRADIENT CORPORATION; COLLIN O'MARA, SECRETARY, DEPARTMENT OF 
NREC, STATE OF DELAWARE; ANNE E. SMITH, SENIOR VICE PRESIDENT, 
 NERA ECONOMIC CONSULTING; AND JEFFREY R. HOLMSTEAD, PARTNER, 
                  BRACEWELL AND GIULIANI, LLP

                    STATEMENT OF MARK HERBST

    Mr. Herbst. Thank you, Mr. Chairman, Chairman Whitfield, 
Representative Rush, members of the subcommittee. I am Mark 
Herbst, Executive Director of the Long Island Contractors' 
Association, and I am here today on behalf of the American Road 
and Transportation Builders' Association, where I serve as the 
Chairman of the State Council of Executives.
    ARTBA, now in its 110th year of service, provides Federal 
representation for more than 5,000 members drawn from all 
business sectors of the U.S. transportation construction 
industry, public and private. Our industry generates more than 
$200 billion annually in U.S. economic activity and sustains 
more than 2.2 million American jobs.
    We appreciate this opportunity to discuss the Environmental 
Protection Agency's recent decision to recommend tightening the 
Federal Clean Air Act standards for particulate matter. At the 
outset please know that we share your interest in assuring that 
all Americans can both breathe clean air and are able to be 
part of a sound and stable economy.
    With this in mind it is essential that all parties involved 
in this proposal recognize any tightening of the PM standard 
would increase the number of counties that do not comply with 
Federal standards.
    As a result, Federal highway funds could be withheld from 
these communities. This reality creates a counterproductive 
cycle where new standards delay needed improvements to the 
Nation's highway and bridge network, which has already reached 
critical mass in terms of being able to serve the needs of our 
citizens and the economy.
    In many cases the projects put on hold or canceled are 
intended to alleviate traffic congestion, a major cause of 
mobile-source emissions. The stated goal of the PM standards is 
in part to improve public health. Policymakers, however, must 
be cognizant of the impact more stringent PM standards would 
have on other Federal objectives.
    Nearly 32,000 people die on U.S. highways each year and 
many Federal aid highway improvements are intended to address 
safety issues. As such, EPA's recommendation to tighten PM 
standards clearly emphasizes one public health threat over 
another. States and counties need predictability and time to 
develop transportation plans which achieve PM reduction and 
create jobs. Adding a new layer of requirements on top of the 
existing standards that have not been fully implemented only 
complicates these ongoing efforts.
    Specifically, existing projects need to be in compliance 
with the Clean Air Act when first undertaken and could be 
thrown out of compliance if new standards are approved, 
exposing project owners to costly, time-consuming litigation.
    It should be noted that the committee's examination of 
EPA's proposed PM standards is particularly well timed as it 
coincides with efforts to complete the long overdue 
reauthorization of the Federal Surface Transportation Program. 
With House and Senate conferees presently meeting around the 
clock on the Transportation Bill, all sides are characterizing 
it as a jobs bill.
    Allowing this much-needed legislation to be followed by 
implementation of EPA's recommended PM standards is at best two 
steps forward, one step back. Providing resources and important 
policy reforms to help States deliver critical transportation 
improvements, while at the same time allowing EPA to greatly 
reduce the areas where transportation projects can move forward 
actually undermines the goal behind the Surface Transportation 
Bill.
    It is ironic that members of both chambers and parties have 
made streamlining the environmental review and approval process 
for transportation projects a priority of the Transportation 
bill yet few talk about the EPA's PM proposal, which will 
severely disrupt the very process they are trying to make more 
effective. Essentially while any streamlining reforms in the 
reauthorization bill could save years during the project 
delivery process, the EPA's proposed PM standards will severely 
restrict the opportunities States have to take advantage of 
these reforms.
    Rather than implement tighter PM standards, EPA should 
focus on fully implementing the current standards that are 
already producing improvements in U.S. air quality.
    Mr. Chairman, Ranking Member Rush, members of the 
subcommittee, ARTBA deeply appreciates this opportunity to 
present testimony to you on this important issue. I look 
forward to answering any questions you may have.
    Thank you.
    [The prepared statement of Mr. Herbst follows:]
    [GRAPHIC] [TIFF OMITTED] 81303.004
    
    [GRAPHIC] [TIFF OMITTED] 81303.005
    
    [GRAPHIC] [TIFF OMITTED] 81303.006
    
    [GRAPHIC] [TIFF OMITTED] 81303.007
    
    [GRAPHIC] [TIFF OMITTED] 81303.008
    
    [GRAPHIC] [TIFF OMITTED] 81303.009
    
    Mr. Whitfield. Thank you, Mr. Herbst, and Mr. Muller, you 
are recognized for a 5-minute opening statement.

                    STATEMENT OF BRAD MULLER

    Mr. Muller. Thank you, Mr. Chairman. Good morning. Good 
morning, Ranking Member Rush, members of the subcommittee. 
Thank you for the opportunity to testify today.
    My name is Brad Muller, and I work for a family-owned, 
fourth generation company which has been in continuous 
operation since 1901, producing cast iron pipe and fittings for 
plumbing. Charlotte Pipe is one of only three U.S. foundries 
left in America that produces the types of metal castings that 
we do, and dozens of competing foundries having gone out of 
business in the last 2 decades.
    We employ 450 associates at our foundry, Mr. Chairman, many 
of whom have been there for decades. In recent years Charlotte 
Pipe and the entire metal casting industry has been hard hit by 
this recession. Despite a massive loss of sales, we have not 
laid off any associates, sacrificing our profitability to keep 
our people working.
    Today I have the privilege of speaking on behalf of not 
only our company's associates but also the other domestic 
foundries as part of the American Foundry Society, our 
industry's trade association, which has more than 8,500 members 
in every State.
    We are alarmed, Mr. Chairman, by a wave of new regulations 
that EPA is imposing that you documented earlier. As an energy-
intensive industry, we are significantly impacted by increased 
electricity costs and reliability issues that will result from 
these regulations.
    Of particular concern are EPA's new Mercury and Air Toxics 
Standards for coal-fired plants, known as Utility MACT. The 
rule requires major overhauls of power plants around the 
country yet is forecasted to result in double digit electricity 
prices in a least 30 States.
    On the heels of the Utility MACT, EPA proposed in March the 
first-ever greenhouse gas standards for power plants, a rule 
that will effectively ban new coal-fired plants in this country 
and could threaten existing coal-fired generation.
    According to a study conducted by NERA, the combined 
estimated costs of the 2012 EPA regulations is a staggering 
$127 billion.
    In addition, Mr. Chairman, EPA has failed as you noted to 
consider the cumulative impact of its power sector regulations 
on grid reliability. So far more than 140 coal-fired generating 
units in 19 States have announced they will retire by 2015, 
creating volatility within the electric grid if steps are not 
taken to balance the retirements with new capacity.
    EPA recently announced a proposed rule that would increase 
the stringency of the NAAQS Standards for fine particulate 
matter. The more stringent PM 2.5 standards will bring 
additional costs for existing foundries and create huge hurdles 
to permitting for expansions and new plants, the exact 
situation that we encountered.
    A few years ago, Charlotte Pipe bought a significant amount 
of land in Stanley County in rural North Carolina with the 
intention of building a new, state-of-the-art, high efficiency 
foundry and closing our current location in downtown Charlotte.
    After we drew up plans for the facility, we submitted our 
air permit for review. State regulators eventually told us that 
while previous air dispersion models only had to account for 
filterable particulate, new air permits now require 
condensables to be included in the total PM 2.5 emissions, 
making the standard that much more difficult to meet.
    This permitting change, combined with EPA's intension to 
lower the standards, made it impossible for us to build a new 
plant. In our case, naturally-occurring levels in rural North 
Carolina, where we were going to build the foundry, were are at 
12.8 parts per billion, higher than EPA's lower end of the 
range, proposed range.
    Instead of the 450 acres we bought, Charlotte Pipe would 
need 4,500 acres to comply with the new standards. A new plant 
would have brought 1,800 jobs, including about 1,000 permanent 
new jobs, to what is currently a depressed area of rural North 
Carolina. The tax benefit of constructing and opening a new 
foundry in Stanly County was estimated to be about $70 million 
over the initial 4-year period, with $17 million each year 
thereafter.
    Charlotte Pipe understands and supports the need for 
reasonable regulations to protect the environment, worker 
safety, and health, but the continued ratcheting down of 
emissions limits--I am sorry. But the continued ratcheting down 
of emission limits produces diminishing returns at far-higher 
costs. EPA's new stringent standards will put many regions out 
of attainment, and manufacturers considering a place to build a 
plant and/or expand production will not be able to obtain the 
necessary permits.
    Thank you, again, for the opportunity to appear today, and 
I will be happy to respond to questions.
    [The prepared statement of Mr. Muller follows:]
    [GRAPHIC] [TIFF OMITTED] 81303.010
    
    [GRAPHIC] [TIFF OMITTED] 81303.011
    
    [GRAPHIC] [TIFF OMITTED] 81303.012
    
    [GRAPHIC] [TIFF OMITTED] 81303.013
    
    [GRAPHIC] [TIFF OMITTED] 81303.014
    
    [GRAPHIC] [TIFF OMITTED] 81303.015
    
    [GRAPHIC] [TIFF OMITTED] 81303.016
    
    [GRAPHIC] [TIFF OMITTED] 81303.017
    
    [GRAPHIC] [TIFF OMITTED] 81303.018
    
    [GRAPHIC] [TIFF OMITTED] 81303.019
    
    [GRAPHIC] [TIFF OMITTED] 81303.020
    
    Mr. Whitfield. Thank you very much, and Dr. Guidotti, you 
are recognized for 5 minutes.

                STATEMENT OF TEE LAMONT GUIDOTTI

    Mr. Guidotti. Thank you for this opportunity. My name is 
Tee Guidotti. I am a medical doctor and----
    Mr. Whitfield. Would you put your mike just a little bit 
closer?
    Mr. Guidotti. Thank you for this opportunity. My name is 
Tee Guidotti. I am a medical doctor and environmental health 
scientist with training in epidemiology and training and 
qualifications in toxicology. I have held many positions over 
my career, including Professor and Chair of the Department of 
Environmental and Occupational Health at George Washington 
University. I am now an International Consultant based here in 
Washington, DC.
    I am here today representing the American Thoracic Society, 
which is the world's leading medical organization devoted to 
advancing clinical and scientific understanding of pulmonary 
diseases, critical illness, and sleep-related breathing 
disorders. The American Thoracic Society supports EPA adopting 
a much stronger standard for fine particulate matter, PM 2.5.
    First, on the ground that revision of the standard will be 
protective of human health, and second, on the grounds that the 
scientific evidence accumulated by EPA is sufficient and 
compelling to justify a move to a more protective standard at 
this time. The ATS recommends an annual standard of 11 
micrograms per cubic meter combined with a 24-hour standard of 
25 micrograms per cubic meter.
    That specific recommendation has been supported by a wide 
range of medical societies and public health organizations, 
including the American Medical Association, the American 
Academy of Pediatrics, the American Lung Association, the 
American Health Association, and the American Public Health 
Association.
    The ATS further believes that the scientific evidence that 
supports the proposed revision and upon which EPA relies is 
sound, comprehensive, and validated. This body of evidence is 
the product of decades of intensive research conducted with 
stringent oversights, double and triple checking results, 
reanalysis to confirm every important finding, and laboratory 
validation of observations in human populations.
    Hundreds, probably now thousands, of studies in the United 
States and around the world have confirmed that elevations in 
fine particulate matter are associated with an increased risk 
of premature death, cardiovascular disease, hospitalization for 
respiratory and cardiovascular diseases, and respiratory 
symptoms within days of the exceedance.
    A number of very large studies in the U.S. and around the 
world have looked at the long-term health effects of ambient 
particles. These studies have provided firm evidence linking 
long-term exposure to ambient particulate matter and all cause 
mortality, cardiovascular mortality, and non-fatal 
cardiovascular events. The impact of particulate air pollution 
on life expectancy in a word is substantial.
    In the scientific review of the 2009, Integrated Science 
Assessment for Particulate Matter, the external panel of 
independent scientists that makes up the Clean Air Scientific 
Advisory Committee, commonly called CASAC, and the EPA 
scientists involved have concluded that a causal relationship, 
meaning that evidence exists for a cause and effect, not just 
an association, a cause and effect relationship is strong 
between ambient fine particulate matter and both mortality, 
meaning deaths, and cardiovascular effects and that the 
evidence for a cause and effect relationship with respiratory 
effects is also strong.
    These conclusions were reached following a rigorous review. 
EPA convened ten multi-day public workshops, CASAC meetings, 
and teleconferences beginning in 2007, in a transparent process 
that allowed scientific peer review by CASAC and public comment 
at every step. The science has been thoroughly vetted. CASAC 
reached a unanimous, unanimous conclusion that a range of 13-11 
micrograms per cubic meter for the annual scientific, for the 
annual standard was scientifically justified.
    In epidemiology there are guides to whether an association 
is likely to be causal or non-causal, meaning that the true 
cause may be indirect because it acts on both the risk factor 
and the outcome, or that it may be spurious. All of these 
criteria have been abundantly satisfied in the case of fine 
particulate matter, and there has even been equally strong 
confirmatory and mechanistic evidence derived from toxicology, 
from animal studies and even volunteer studies and laboratory 
studies that now show us why this is happening and give us a 
window on the mechanism of why these things happen.
    These scientific studies have linked particulate matter 
exposure to problems, including aggravated asthma in children, 
increased emergency department visits, stroke, heart attacks, 
more frequent deaths, and second heart attacks from people who 
have already had one, and hospital admissions. It also 
demonstrates that the situation is worse for certain parts of 
the population such as children and teenagers, the elderly, and 
people who already have cardiovascular disease.
    Congress built into the Clean Air Act an orderly, 
systematic process for the regular review of scientific 
evidence related to the health effects of air pollution. The 
American Thoracic Society strongly supports the authority of 
the EPA to periodically review and update the air quality 
standards as mandated by the Clean Air Act. The evidence of 
harm from particulate matter pollution underscores how 
important it actually is for EPA to review and adjust health 
standards on an ongoing basis, and ATS believes that Congress 
should continue to allow them to do so.
    Thank you.
    [The prepared statement of Mr. Guidotti follows:]
    [GRAPHIC] [TIFF OMITTED] 81303.021
    
    [GRAPHIC] [TIFF OMITTED] 81303.022
    
    [GRAPHIC] [TIFF OMITTED] 81303.023
    
    [GRAPHIC] [TIFF OMITTED] 81303.024
    
    [GRAPHIC] [TIFF OMITTED] 81303.025
    
    [GRAPHIC] [TIFF OMITTED] 81303.026
    
    [GRAPHIC] [TIFF OMITTED] 81303.027
    
    [GRAPHIC] [TIFF OMITTED] 81303.028
    
    [GRAPHIC] [TIFF OMITTED] 81303.029
    
    [GRAPHIC] [TIFF OMITTED] 81303.030
    
    [GRAPHIC] [TIFF OMITTED] 81303.031
    
    [GRAPHIC] [TIFF OMITTED] 81303.032
    
    Mr. Whitfield. Thank you, and Dr. Valberg, you are 
recognized for a 5-minute opening statement.

                 STATEMENT OF PETER A. VALBERG

    Mr. Valberg. Well, thank you, and good morning to the 
Chairman and members of the committee. I appreciate this 
opportunity to speak. I am Peter Valberg, Principal at 
Gradient, an environmental health consulting firm in Boston. I 
have worked for many years in public health and inhalation 
toxicology. For about a decade I was a faculty member at the 
Harvard School of Public Health. I was a member of the National 
Academy of Sciences panel that looked at the public health 
benefits of air quality regulation. I have testified before the 
Clean Air Science Advisory Committee, and today I am testifying 
about the toxicity of airborne particulate matter, which I will 
call PM.
    And what I point to are the critical role of experimental 
science in evaluating the PM health effects, and I do this 
because I believe the EPA's health effects analysis of PM 
relies too heavily on statistical associations per se, and EPA 
undervalues the role of laboratory science in helping 
understand the toxicology of PM.
    Our scientific knowledge is based on--health risk is based 
on three legs of evidence. One leg is statistical, 
epidemiology, another leg is clinical data and experimental 
studies with lab animals, and the third leg is understanding 
biological mechanism. If any legs are weak or missing, as in 
the case of ambient PM at the levels of the PM standard, the 
reliability of our knowledge is compromised. Experimental 
science calls into question EPA's forecast of harm such as 
death caused by small increments in PM levels at concentrations 
close to the present day standards.
    That is neither data from lab animals inhaling PM nor human 
clinical data validate a causal basis for the statistical 
associations between PM levels and mortality that are reported 
by some of the observational epidemiology studies.
    Moreover, toxicologists have studied the chemicals that 
constitute PM in outdoor air, and no one has found an ambient 
PM constituent that is life threatening when breathed at levels 
that we encounter outdoors. Remember that in human responses to 
chemical intake it is the dose that makes the poison, and with 
regard to mechanistic support, EPA does not provide a sequence 
of recognized biological events whereby low levels in the range 
of 12 or 13 micrograms per cubic meter of outdoor PM will lead 
to death or effect serious enough to cause hospitalization.
    On a more practical side EPA's health harm projections for 
PM, which are based on statistical associations, are 
contradicted by the health of people in dusty occupations, 
where worker studies show that at levels of PM considerably 
above ambient PM levels do not show increased mortality rates 
in those work populations.
    Likewise, in our own everyday experience we all breath 
elevated levels of PM in our homes, cars, personal activities 
such as lawn mowing, raking leaves, barbequing, vacuuming, 
sitting by a fireplace. The PM levels we breathe are vastly 
higher than the PM in typical outdoor air, and although of 
short term, these elevated levels contribute significantly to 
our annual and lifetime PM dose, and EPA does not make it clear 
that according to their own health harm projections for PM 
these indoor levels should be vastly harmful, more harmful, 
should be vastly more harmful than outdoor PM.
    EPA relies on statistical associations between central 
monitor PM levels and population mortality rates, but such 
correlations cannot establish causal links. The computer model 
is required to uncover these PM mortality correlations, require 
many assumptions and adjustments. The results you get depend on 
the model you use, how you set it up, and how many different 
tests you run. It is not possible to correct from any non-PM 
air pollutants as well as non-pollution factors that may 
confound these PM associations.
    This model dependency is a known problem and has been 
pointed out in numerous publications. Many unknown factors can 
affect population mortality rates. For example, studies have 
shown that population mortality is correlated with calendar 
date, day of the week, stock prices, weather, or outcome of 
sports events, and yet we wouldn't think of outlawing certain 
calendar dates or the Super Bowl on the basis of these 
associations which are quite consistent.
    Even if we restrict our attentions to statistical studies 
per se, there are unexplained inconsistencies in reported PM 
effect factors across urban areas with no PM risk being 
reported from any cities, leaving uncertainty as to whether 
lowering the standards will truly yield health benefits, and 
EPA does not explain or delve into why these ``no effect,'' or 
inconsistent findings should be disregarded in favor of those 
studies that do show small effects.
    In summary, EPA's statistical approach is fraught with 
numerous assumptions and uncertainties, and EPA does not 
provide experimental evidence and laboratory science to support 
PM-causing death and hospitalizations at levels below the 
current standards.
    Moreover, since EPA admits they have no understanding of 
which PM constituent or which PM chemical they believe causes 
the deaths they predict, does it really make sense to lower the 
standards without such more specific information.
    Thank you for the opportunity to speak, and I welcome your 
questions and comments.
    [The prepared statement of Mr. Valberg follows:]
    [GRAPHIC] [TIFF OMITTED] 81303.033
    
    [GRAPHIC] [TIFF OMITTED] 81303.034
    
    [GRAPHIC] [TIFF OMITTED] 81303.035
    
    [GRAPHIC] [TIFF OMITTED] 81303.036
    
    [GRAPHIC] [TIFF OMITTED] 81303.037
    
    Mr. Whitfield. Well, thank you, Dr. Valberg, and Mr. 
O'Mara, you are recognized for 5 minutes.

                   STATEMENT OF COLLIN O'MARA

    Mr. O'Mara. Thank you, Mr. Chairman, Ranking Member Rush, 
members of the subcommittee. My name is Collin O'Mara. I serve 
as the Secretary of Energy and Environment for the State of 
Delaware, and it is my pleasure to be with all of you today.
    The proposal that we are discussing today is measured, it 
is based on sound science, it is technically feasible, it is 
cost effective, and it has been a long time in the making.
    The PM2.5 NAAQS currently in effect includes an annual 
standard of 15 micrograms per cubic meter, which was 
promulgated in 1997, and then in 2006, the 24-hour standard of 
35 micrograms per cubic meter, was established. As a result of 
litigation, the U.S. Court of Appeals for the District of 
Columbia remanded the 2006, annual PM2.5 standard to EPA 
because the agency failed to explain adequately why the 
standard provided the requisite protection for at-risk 
populations including children. When it became clear that EPA 
would fail to meet its promised deadlines to the Court, many of 
the plaintiffs, including the State of Delaware and several 
other States and the American Lung Association, filed mandamus 
petitions in the DC Circuit in November, 2011, on grounds that 
EPA had unreasonably delayed responding to the remand order 
from 2006. And the court then ordered EPA to respond.
    EPA has now proposed its response, concluding that the 
PM2.5 standards established in 2006, are, indeed, insufficient 
to protect public health as required by the Clean Air Act, and 
that the proposed revisions are warranted to provide the 
appropriate degree of increased public health protection.
    This proposed action by EPA is both a legislative and 
Court-mandated requirement that is long overdue and necessary. 
Peer-reviewed science clearly supports EPA's action. In 
December, 2009, EPA published an analysis of a particulate 
matter-related, peer-reviewed health science literature in its 
Integrated Science Assessment, the ISA, which concluded that 
the epidemiologic, controlled human exposure, and toxicological 
studies each provide evidence for increased vulnerability of 
various populations such as children, older adults, people with 
pre-existing diseases, and lower-income individuals.
    In June, 2010, EPA then published its Quantitative Health 
Risk Assessment for Particulate Matter to quantify exposure the 
risk. This analysis estimated that 63, between 63 and 88,000 
premature deaths each year are related to PM2.5 exposure.
    And then in April of this year, of 2011, EPA published its 
Policy Assessment for Review of Particulate Matter National 
Ambient Air Quality Standards, which recommended revising the 
annual standard in the range of 11 to 13 micrograms per cubic 
meter and then recommended leaving the current 24-hour standard 
exactly the same at 35. Oh, I am sorry. Recommended changing 
it, either leaving it at 35 or reducing it to 30.
    EPA has proposed to update the annual PM2.5 standard within 
a range of this 11 to 13 as recommended by the experts. They 
propose staying between 12 and 13, at the upper end of the 
range, and then to retain the 24-hour PM2.5 standard. In doing 
so EPA exercised and is demonstrating moderation. The agency 
easily could have selected, for example, a number at the lower 
end of the range, i.e., 11. They could have set a tighter daily 
standard, below 35, and they could have set a more stringent 
PM10 standard. In other words, the proposal could have been 
more stringent.
    Finalizing this action at the lower end of the proposal, so 
at 12, will provide increased protection for at-risk 
populations against an array of PM2.5-related adverse health 
effects and give the public greater confidence that the air 
they are breathing is actually healthy.
    Some have questioned whether we can afford this rule. Even 
though EPA is statutorily prohibited from considering the costs 
of implementing the NAAQS, they have conducted a Regulatory 
Impact Analysis which provides the potential costs and benefits 
of several alternatives. An analysis of this report suggests 
that the benefits of a protective 12 micrograms per cubic meter 
standard as proposed outweigh the cost by a ratio of 30 to 1 to 
85 to 1. That is $30 of benefits for every $1 of cost up to $85 
a benefit for every $1 of cost.
    Our experience in Delaware reinforces both the importance 
of this rule and the cost-benefit analysis for this standard. 
We have proven in Delaware repeatedly that measures which will 
achieve a health-based PM2.5 standard are both technically 
feasible and cost-effective. Under the Clean Air Act, States 
are given the flexibility to meet standards in the most cost-
effective manner by considering the economic impacts when 
implementing rules to meet a more health protective standard, 
and this is exactly what we have done in Delaware.
    For example, in 2006, we promulgated a regulation that 
required NOx, SO2, and mercury emission controls on all of our 
coal and oil-fired power plants. This multi-pollutant approach 
allowed effective facilities to design the most cost-effective 
emission controls that would reduce these multiple pollutions 
at the same time. It is important to note that this approach 
did not require a specific target for PM2.5, but through this 
approach we have already reduced PM2.5 emissions by 63 percent 
from the 2006 levels and will be reduced by 83 percent by 2013. 
These are already products that are in the works. This is not 
speculative data. These are actual projects that are on the 
ground.
    We have worked with some of the largest companies in 
Delaware, including NRG, Calpine, PBF, DuPont, Perdue, 
Mountaire, Evraz Steel, and Croda, to reduce their emissions, 
including PM2.5. We have seen dramatic decreases across several 
sectors. Most of these projects have been actually kind of 
public-private partnerships if you will, with the State 
sometimes providing financing or expedited permitting to ensure 
reductions across multiple pollutants, timely project 
completion, creation of construction jobs and improved economic 
competitiveness. We believe that we are proving they can have 
both a very strong economy and a healthy environment at the 
same time.
    Yet despite significant progress in Delaware to reduce 
PM2.5 and other traditional pollutants, our State continues to 
suffer adverse health effects from sources of transport that 
contribute more than 95 percent of the PM2.5 in Delaware. The 
proposed national standard would bring us one step closer to 
reducing this transport pollution that continues to plague our 
downwind States and in doing so will help ensure healthy air 
for all of our residents.
    Thank you for the opportunity to be with you today. I look 
forward to your questions.
    [The prepared statement of Mr. O'Mara follows:]
    [GRAPHIC] [TIFF OMITTED] 81303.038
    
    [GRAPHIC] [TIFF OMITTED] 81303.039
    
    [GRAPHIC] [TIFF OMITTED] 81303.040
    
    [GRAPHIC] [TIFF OMITTED] 81303.041
    
    Mr. Whitfield. Thank you very much, and Dr. Smith, you are 
recognized for 5 minutes.

                   STATEMENT OF ANNE E. SMITH

    Ms. Smith. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for inviting me. I am Anne Smith, 
Senior Vice President at NERA Economic Consulting. I am an 
economics and risk assessment professional. My testimony is my 
own and does not represent the position of my company or its 
clients.
    The proposed PM NAAQS will likely be more costly than EPA 
is reporting, and its benefits are far more uncertain than EPA 
indicates. One feature of the proposed rule that will drive 
costs above what EPA has estimated is a new requirement that 
the fine PM monitors be placed near roads in each area. Near-
road monitors can be expected to have much higher fine PM 
readings than the monitors that are currently used to assess 
attainment status.
    On its own this new monitor requirement may seem innocuous, 
but EPA is also proposing the attainment status now be 
determined by each region's single worst-case monitor. That 
worst-case reading is likely to come from the newly-placed 
near-road monitor.
    So any NAAQS level, including the current NAAQS level if it 
were still in effect, will become much more difficult to meet 
as a result of these changes. EPA has not accounted for the 
costs of the extra stringency that these combined changes in 
the rule would create.
    EPA's estimates of the benefits of the proposed PM NAAQS 
are far more uncertain than EPA admits. The Administrator 
argues for not setting the primary standard below 12 micrograms 
per cubic meter because of increasing lack of confidence that 
she has in predictions of health impacts from yet lower fine PM 
levels.
    But the Administrator's lack of confidence has not 
prevented EPA from taking full credit for those predicted 
health impacts as if they were absolutely certain when 
estimating the proposed rules dollar benefits, and yet more 
uncertainty is missing in EPA's dollar benefits estimates.
    For example, almost all of EPA's estimate of benefits is 
based on a presumption that the statistical association between 
fine PM and mortality risk is a causal relationship. That 
presumption of causality is still subject to question. This 
point has been demonstrated vividly by a new method of 
analyzing the fine PM risk data that was published in the 
Journal of the American Statistical Association just a year ago 
after EPA's causal determination was finalized.
    When striking new evidence suddenly emerges that a 
regulatory action may have no benefits at all, it would seem 
prudent for EPA to take the time to more closely examine and 
deliberate the new evidence before locking in the major new 
regulatory action. But also this ongoing uncertainty should at 
least be recognized in the benefits estimates, and it is not.
    Let me now turn to the proposed new secondary standard to 
protect urban visibility. This unusual new proposed standard 
and proposed rule deserves close inspection. It would be based 
on an arcane indicator called the ``deciview,'' and it has--
that deciview has some troubling implications for a PM 
standard.
    For one, a uniform national deciview standard will limit 
fine PM concentrations to very different levels in different 
cities. Just as an example, a 28 deciview standard such as EPA 
is proposing, would imply 24-hour average fine PM limits that 
could be as low as 18 micrograms per cubic meter in some areas 
and as high as 43 micrograms per cubic meter in other areas. A 
huge variation. Each U.S. city will face a different PM 
standard under the proposed deciview standard.
    While EPA says the visibility standard would have minimal 
costs, small variations from the proposed level and form could 
make it much more stringent than the primary standard to 
protect health, but even if this visibility standard would be 
binding in only a couple of cities as EPA says, do we really 
want a rule that makes some cities spend more to protect its 
public from its aesthetic distress than it will have to spend 
to get its ambient PM levels down to levels that EPA considers 
protective of the public health? No. This is clearly a reversal 
of reasonable public spending priorities.
    It also is unjustifiable because the EPA is using a 
scientifically-indefensible method to determine when and if 
visibility degradation does adversely affect public welfare. 
EPA has ignored evidence that has been provided regarding the 
method's lack of credibility. If this evidence were to be 
acknowledged, there would be no basis for setting any 
visibility standard.
    Thank you. I have a longer written statement that 
substantiates the points I have made, and I request that it 
also be entered into the record, and I would be happy to accept 
questions.
    [The prepared statement of Ms. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] 81303.042
    
    [GRAPHIC] [TIFF OMITTED] 81303.043
    
    [GRAPHIC] [TIFF OMITTED] 81303.044
    
    [GRAPHIC] [TIFF OMITTED] 81303.045
    
    [GRAPHIC] [TIFF OMITTED] 81303.046
    
    [GRAPHIC] [TIFF OMITTED] 81303.047
    
    [GRAPHIC] [TIFF OMITTED] 81303.048
    
    [GRAPHIC] [TIFF OMITTED] 81303.049
    
    [GRAPHIC] [TIFF OMITTED] 81303.050
    
    [GRAPHIC] [TIFF OMITTED] 81303.051
    
    [GRAPHIC] [TIFF OMITTED] 81303.052
    
    [GRAPHIC] [TIFF OMITTED] 81303.053
    
    [GRAPHIC] [TIFF OMITTED] 81303.054
    
    [GRAPHIC] [TIFF OMITTED] 81303.055
    
    [GRAPHIC] [TIFF OMITTED] 81303.056
    
    [GRAPHIC] [TIFF OMITTED] 81303.057
    
    [GRAPHIC] [TIFF OMITTED] 81303.058
    
    [GRAPHIC] [TIFF OMITTED] 81303.059
    
    Mr. Whitfield. Thank you, Dr. Smith, and Mr. Holmstead, you 
are recognized for 5 minutes.

               STATEMENT OF JEFFREY R. HOLMSTEAD

    Mr. Holmstead. Mr. Chairman, Mr. Rush, it is a pleasure to 
be here. Thank you for having me. My name is Jeff Holmstead, 
and I am a partner in the law firm of Bracewell and Giuliani, 
but today I am not representing my law firm or any clients. I 
have not talked with anybody about my views, but I am here just 
to talk about this proposal as someone who has really spent his 
professional life working on the Clean Air Act and looking at 
what works, what doesn't, and really looking at the 
implications of the various different Clean Air Act Programs 
that we have. As some of you know, I was the head of the EPA 
Air Office for almost 5 years, and so I like to believe I know 
a lot about what works in the Act and what doesn't.
    My primary concern about the new proposed standards for PM 
is that EPA is not being honest about the burden that it will 
impose on State and local governments, on businesses and 
companies, and on American consumers, and I, again, I was 
amused. Some of you may have seen these charts and press 
releases, but, you know, the press release says EPA proposes 
Clean Air Act standards. Ninety-nine percent of U.S. counties 
will meet the standards without any actions, any additional 
actions. Ninety-nine percent of counties. They have a map that 
says, oh, this isn't going to do anything. Depending on where 
we set the standard you are going to have either two additional 
counties or four or six additional counties that won't have to 
take any action to meet these new standards.
    Well, that would be great if that is how the Clean Air Act 
worked. If all you have to do is wait for existing programs to 
get the air into attainment by this 2020, date, but as I say, 
that is not the way the Clean Air Act works. As soon as EPA 
finalizes a new standard, there are immediate permitting 
burdens that as several people have said, make it much more 
difficult to permit anything, regardless of whether EPA is 
projecting that you are going to meet the standard in just a 
few years.
    So, anyway, I just--it frustrates me because I think the 
Clean Air Act is important. I think there are important 
benefits from the Clean Air Act. I just think we need to be 
honest with people about what the burdens are and my own view 
is we ought to try to be achieving those benefits in the most 
cost-effective way possible.
    If I can just point out a couple of other concerns and 
others have already mentioned some of these, especially Dr. 
Smith, but this idea that this is only a minor adjustment to 
the standard because we are just reducing it from 15 to 13 or 
12 completely ignores some of the key parts of this proposal. 
If we are now today essentially you put these monitors out in 
an area, and you average across all those monitors because 
everybody has essentially said that PM2.5 is an area-wide 
issue, you don't look at the highest monitor, you look at the 
average of all these monitors.
    Now we are going to be looking at the worst case single 
monitor, and we are going to be putting a monitor nearby a road 
that will certainly be in almost all cases the highest monitor. 
So we don't know whether the standard is going to increase the 
stringency by 30 percent or by 50 percent, and I don't think 
there is any way for EPA really to know for sure. I just think 
we need to be honest about the implications of that.
    I am also as someone who has been a regulator, a little 
troubled about this new secondary visibility standard. Although 
it is cloaked as a scientific determination, as Dr. Smith's 
testimony explains, it really is extremely subjective, 
extremely variable from one place to the other, and the idea 
that you have someone that essentially says, we are going to 
force society to spend a lot of money because we think that 
there is a problem with visibility in urban centers, that is 
not what Congress designed the Clean Air Act to do, and I don't 
think that is an appropriate exercise of authority by a 
regulatory agency.
    So I am just troubled, again, that the Clean Air Act seems 
to be misused for something it was never intended to be used 
for. I am actually a big believer in the Clean Air Act and the 
gains that we have achieved I think it is one of the major 
success stories of the Federal Government, but we are spending 
a lot more money than we need to spend as a society, and 
unfortunately, there are many parts of the Clean Air Act that 
have come to be used as weapons by people who oppose a 
transportation project, even a state-of-the-art new facility to 
build something, to manufacture something, and I think it is 
time that we were honest with people about the implications of 
this and that perhaps we look for more effective ways to 
achieve our Clean Air Act goals.
    Thank you very much.
    [The prepared statement of Mr. Holmstead follows:]
    [GRAPHIC] [TIFF OMITTED] 81303.060
    
    [GRAPHIC] [TIFF OMITTED] 81303.061
    
    Mr. Whitfield. Thank you, Mr. Holmstead, and thank all of 
you for your testimony, and at this time I recognize myself for 
5 minutes of questions.
    First comment I would make is that I have sat through 21 of 
these hearings in the last period of months, and I think it is 
very easy for people to say, well, Democrats support the Clean 
Air Act, Republicans basically oppose the Clean Air Act, and 
simplify the debate. And yet after the hearings that I have sat 
through I genuinely believe that Administrator Jackson is 
misleading the American people either wittingly or unwittingly, 
and why do I say that? Because of this. You made the comment, 
Mr. Holmstead, that EPA is not being honest, and I think that 
is true in many, in some instances.
    For example, when they adopted the Utility MACT, which they 
call the Mercury Rule, they said that the primary benefit from 
the Utility MACT adoption would come from reduction of mercury. 
That would be the primary benefit, and yet their own analysis 
and everyone agreed that the real benefit did not come from 
mercury emission. In fact, there was minute benefit from 
mercury emission. It all came from reduction of particulate 
matter.
    And just like Mr. Valberg has talked about how there is no 
real evidence of which particulate matter causes health 
problems, EPA admits they have no understanding of which 
particulate matter constituents cause their predicted deaths or 
health problems. They admit that, and yet frequently in the 
analysis that they present up here, everything seems to be 
absolutely, 100 percent certain.
    And another frustration that I have had and Dr. Guidotti, 
you wrote a book entitled, ``Global Occupational Health,'' and 
I haven't read all of it, but I read parts of it, and I think 
it is very good, but you made the comment employment is one of 
the most significant determinants of health even though it is 
not a typical work-related hazard. And you also said good 
research strongly links unemployment with adverse health 
effects.
    And Mr. Muller made the comment that 140 coal plants by 
2015 have announced they are going to be closing, and our 
economy is pretty weak now, so those people are going to lose 
their jobs, and Mr. Muller is not going to be able to expand 
his business because he can't meet these air permit 
requirements. He was going to hire 1,800 people. Some of those 
people may be unemployed, and yet EPA never looks at the cost 
of health because of a new regulation that causes unemployment.
    And I would ask you, Dr. Guidotti, do you believe, I mean, 
none of us want to trash the, get rid of the Clean Air Act, but 
it hadn't really been looked at since 1990. Do you think that 
that is a valid subject that we should explore of the health 
impacts on those people and their families who lose their jobs?
    Mr. Guidotti. Well, certainly I do or I wouldn't have 
written that. I think that the----
    Mr. Whitfield. And that is why I quoted it.
    Mr. Guidotti. I am not entirely sure that I personally 
wrote that, but the--you are referring to a book that had 
multiple authors. The point, though, is well taken that there 
are unemployment as well as many other social factors that do 
on a population basis and on an individual basis we can see 
with our friends and neighbors affect a person's health. 
Nothing affects a person's health as badly, though, as having a 
disease and----
    Mr. Whitfield. Well, let me just interrupt a minute. I 
mean, I agree with you that they have diseases, but people who 
don't have access to healthcare get diseases also. So I don't 
want to argue the point. I am just saying that I think it is a 
mistake that they not at least explore the impact of loss of 
healthcare on people who lose their job because of these 
regulations or not able to get a job.
    Mr. Bilbray. Mr. Chairman, may I respond?
    Mr. Whitfield. Who said that?
    Mr. Bilbray. Mr. Chairman.
    Mr. Whitfield. Oh, yes. Yes.
    Mr. Bilbray. I would just like to reinforce when we look at 
climate change, the justification for Clean Air Act in climate 
change was that the economic, the disruption of economies 
around the world would affect humans and human lives and that 
basically the major health impacts of climate change was 
economic chaos that was created for it.
    It is interesting that it was able to be applied to climate 
change issues but not based on the economic impacts of 
regulation. It was sort of like a double standard, because we 
looked at the economic impact of climate change, but we sort of 
say that it is sacrilegious to look at the economic impact of 
regulation. Isn't there an inconsistency there?
    Mr. Whitfield. Well, my time has expired, and thanks to the 
gentleman from California, I am going to get 20 seconds back 
from you now.
    At this time I recognize the gentleman from Illinois, Mr. 
Rush.
    Mr. Rush. Not to deny, a lot of statements have been made 
this morning, and you heard many of them. You were just asked 
some questions by the chair. For the record, would you care to 
respond more thoroughly to some of the claims that you heard? 
You are a trained physician. Do you want to talk about some of 
the known health impacts associated with breathing in these 
particulates, and do you want to expound a little bit more on 
the statement in the book that you coauthored about the 
unemployment impacts on health? I am--my district is a very 
poor district, high unemployment, and I agree that it does have 
a serious impact on health.
    Where does that sit in terms of this discussion that we are 
debating today?
    Mr. Guidotti. Well, thank you very much for asking. I think 
that we are dealing with a complicated situation in which the 
environment comes together with social factors, comes together 
with health factors. I am qualified to speak about the health 
factors, and that is what I am going to focus on here.
    I think that the productivity and the continued future of 
sustainable health in an economy in this and any other country 
depends on having competitive technology and increasingly that 
means clean technology, and it also means having a healthy 
workforce, a workforce that is sick, a workforce in which 
disabled individuals can't work because their health is further 
impaired by environmental factors, people who are high risk of 
a death this is, would be entirely avoidable and would be--if 
they were sufficiently protected, and people who are present at 
work but aren't able to focus and aren't able to work at full 
capacity because their disease is like lung diseases and like 
allergies, are made that much worse are also a strong grade and 
a strong resistance to full productivity.
    So I don't think that this is an easy issue of employment, 
unemployment, and tradeoff between health and employment. I 
think that the future of the American workforce depends in 
large part on being healthier relative to other workforces, 
maintaining and preferably enhancing the health that we have 
today so that we are more competitive and healthier compared to 
other countries than we are currently.
    Mr. Rush. Is there a scientific basis for these EPA's 
proposal for lowering the fine particulate standards from 15 
micrograms per cubic meter average over a year to between 12 
and 13 micrograms?
    Mr. Guidotti. Yes, and thank you for asking. Dr. Valberg 
referred to a three-legged stool, and I think that we can--with 
it--acknowledging that it has drawbacks, I think that we can 
talk about that three-legged stool in terms of the 
epidemiologic evidence, which has the one overwhelming benefit 
in that it tells us about human beings. And the evidence there 
is overwhelming. I mentioned the guides to assessing 
statistical evidence as being likely to be causal. They are 
completely satisfied, and indeed, overwhelming in the case of 
fine particulate matter.
    If you look at toxicology, however, toxicology is the 
science of poisons and the effects of external agents on the 
body, and we have very strong toxilogical evidence that fine 
particulate matter is disproportionately toxic to the human 
body, and because of the third leg of the stool which has to do 
with biomedical and laboratory research, we now have a pretty 
clear idea of why, and we know, for example, that ambient fine 
particulate matter in the outdoor environment is not 
necessarily the same particulate matter that we have in the 
indoor environment. That the toxicity of these fine particles 
depends on the size and the distribution, and I have got to 
come back to that because that is a truly critical factor. 
Their composition, and we now know that those fine particulate 
particles that include metals are far more toxic than others, 
and they are more likely to include metals when they are 
ambient. And atmospheric transformation because there are 
processes in the environment that actually change the 
particles, change the chemical composition as they age in the 
atmosphere.
    Size is particularly important because the tiny particles 
we are talking about so much lower than the size of particles 
that--in some of the studies that Dr. Valberg was alluding to 
earlier, get into places in the body that the larger particles 
don't, and that means that the does that the cell sees, the 
dose that the tissue sees is a lot higher than the dose that is 
delivered say in an experimental study or that is measured 
outside.
    So it is a size distribution composition and atmospheric 
transformation are critical factors that you simply don't see 
in indoor air pollution.
    Mr. Whitfield. The gentleman's time has expired.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Dr. Guidotti, let me pick up a little but 
there. If I follow your reasoning, if there is a scientific 
basis to establish that people who have allergies or lung 
diseases may be adversely affected, then the EPA under the 
Clean Air Act should take action against the offending items. 
Is that your testimony?
    Mr. Guidotti. No. I think that is an extrapolation of my 
testimony. I think that----
    Mr. Griffith. Is it accurate?
    Mr. Guidotti [continuing]. The reality--what is that?
    Mr. Griffith. Is it accurate? Yes or no?
    Mr. Guidotti. Could you repeat it?
    Mr. Griffith. If people have, if there is a scientific 
basis to establish that there is something in the air that is 
causing people with allergies and lung diseases to suffer, they 
may not be able to pay attention as well to work when they are 
working, or they may not be able to do things that they might 
otherwise do if this item wasn't present in the air, that the 
EPA should take action.
    Is that an extrapolation of your testimony, and is that 
accurate?
    Mr. Guidotti. No, it is not.
    Mr. Griffith. All right. Tell me why.
    Mr. Guidotti. Well, because there is----
    Mr. Griffith. Because that is what I heard.
    Mr. Guidotti. What is that?
    Mr. Griffith. That is what I heard, sir.
    Mr. Guidotti. Well, I am sorry that you heard it that way. 
Let me clarify it, please. The----
    Mr. Griffith. Well, let me try to straighten it out because 
I only have so much time.
    Mr. Guidotti. Excuse me?
    Mr. Griffith. I only have so much time, so let me try to 
straighten it out then, because that is what I thought I heard 
you saying, that the EPA proposed rules would, based on a 
scientific basis that some of these items cause people not to 
be able to perform as well and that people with allergies and 
lung disease we should be trying to take care of them. Is that 
not what you said? I need----
    Mr. Guidotti. Well----
    Mr. Griffith [continuing]. A simple answer yes or no?
    Mr. Guidotti [continuing]. The second statement that you 
said is correct. The first statement is not.
    Mr. Griffith. What is not correct?
    Mr. Guidotti. What is not correct is that the implication 
that you said in the earlier statement that it was----
    Mr. Griffith. So the second statement was correct?
    Mr. Guidotti. What is that?
    Mr. Griffith. The second statement was correct?
    Mr. Guidotti. The second statement was correct with----
    Mr. Griffith. All right. So let me go through then because 
here is what I heard you saying, and understand that I may be a 
little edgy today because yesterday I had my son, my wife had 
my son at the allergist, and he has been under an allergist's 
care since he was 4 months old. He is 6 now. What I heard you 
say was the EPA ought to be taking actions against trees 
because my son's number one problem is trees. I have an issue 
with trees as well.
    You know, the problem is you can take these things to an 
extreme to a point where they no longer make sense, and I would 
submit that that is where we are with these new standards that 
the EPA is proposing. Yes, you could make my son's life a whole 
lot better if you tore down every tree in the United States of 
America and the world, but that obviously is ridiculous.
    But I would submit that what the EPA is now trying to do to 
these gentlemen trying to produce jobs is just as ridiculous 
because we have to have jobs, and as your book, whether you 
wrote that chapter or not, says unemployment also has an 
effect, and what we are doing is we are killing jobs left and 
right, and you know, there is--it is so significant in my 
district, I represent a coal mining area. Not all of my 
district is coal mining, but a big chunk of it is. There is a 
bumper sticker out there that says if you think coal is ugly, 
wait until you see poverty.
    And I submit that what we are doing is we are putting a lot 
of people out of work, we are making the overall economic 
situation so bad that people are truly hurting, and that that 
is going to have a bigger health impact than these new 
regulations would have. The positive impact these new 
regulations would have is offset by a tremendous negative.
    Let me ask Mr. Herbst this question in the time that I have 
remaining. They are also in my district building a road up the 
side of Christiansburg Mountain. They had to blow up half the 
mountain or half of one of the hills, depending on how you want 
to define them, to get this road laid out.
    Are you telling me that under these new standards we 
probably wouldn't have been able to add that extra lane?
    Mr. Herbst. That is a very good possibility. The concern 
that we have is the additional regulation changing things. We 
were given with the Stimulus Program, if I can use that as an 
example, what we saw is all this available money for 
localities, for counties, States to come down for construction 
projects, and what we had, the problem that we had was three-
fold. Number one, a lot of the municipalities did not apply 
because they didn't want the strings attached. Number two was 
another example that we are still going through right now with 
a contractor who is owed over $1 million, family-owned, small 
business, isn't being paid because the regulators came in 
afterwards and audited and said all of these procedures by the 
owner, which was a municipality, didn't fulfill their 
obligation. So the municipality turns around and tells the 
owner, we are just not going to pay you. So this contractor is 
out over $1 million and is fledgling right now and may not stay 
in business. So that is a problem with the additional 
regulation.
    The third one is probably more closely related to your 
issue, is we had one contractor through this program that was--
bid he job to straighten out a curb line along the roadway, 
major roadway in the town, and what happened was the Federal 
Government came in and said, you know what? You need land 
takings less than a foot and a half. It is not following the 
Federal regulations. You are not eligible for the funds, and 
that project could not go forward.
    So that is what regulation does. We are told you can go 
ahead and do this. Meanwhile we have lost 40,000 jobs in the 
industry just in my bi-county region.
    Mr. Griffith. Just in your region?
    Mr. Herbst. Yes.
    Mr. Griffith. Forty thousand jobs?
    Mr. Herbst. Yes.
    Mr. Griffith. I yield back, Mr. Chairman.
    Mr. Whitfield. The gentleman's time has expired.
    At this time I recognize the gentleman from West Virginia, 
Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. I guess let's start 
with you, Mr. Holmstead, from your experience. Does the EPA 
have, does it have authority to regulate air quality in a 
school building?
    Mr. Holmstead. Inside a building? No.
    Mr. McKinley. Inside.
    Mr. Holmstead. No, they do not.
    Mr. McKinley. Does it have the authority to regulate air in 
a home?
    Mr. Holmstead. No, it does not.
    Mr. McKinley. Does it have authority to regulate the air in 
this room?
    Mr. Holmstead. No, I don't believe it has any authority to 
regulate----
    Mr. McKinley. Does it have the authority to regulate air in 
my former office building?
    Mr. Holmstead. No.
    Mr. McKinley. Does it have the authority to regulate the 
air in my car?
    Mr. Holmstead. I don't think so.
    Mr. McKinley. Thank you. I am just curious because I want 
to build back off what Mr. Valberg was saying, Dr. Valberg, and 
what we have heard here over the last 18 months of my term here 
in Congress has been about air quality, and I have struggles as 
an engineer, one of just two of us in Congress, to see how we 
differentiate between indoor air quality and outdoor air 
quality. When we talk about the diseases that people are coming 
down with, how have we--maybe, Dr. Valberg, maybe if you could 
explain, how do we differentiate that when someone has an 
asthma attack, how--why is it that some folks in this chamber 
will say it is caused by outdoor air, but 90 percent of our 
time is spent in indoor air? How do you think people can 
differentiate between where they get the particulate matter 
that causes an asthma attack?
    Mr. Valberg. That is a very good question, and I agree with 
Dr. Guidotti that the composition of different types of air is, 
in fact, different, but it is EPA's position that, you know, 
according to their paradigm and their formula, they treat it 
all equally, even though indoor air may be different.
    Mr. McKinley. But have you seen the EPA's own Web site? 
Their own Web site says that indoor air quality is 96 times 
worse than outdoor air.
    Mr. Valberg. Yes. It is--not only is it worse, but we 
mostly spend our time indoors. I think we all have this 
impression that if we want fresh air, we go outdoors. If we 
want to have less, more stale air, we are usually indoors.
    Mr. McKinley. Well, Dr. Valberg, you know, all, the whole 
panel, look. I know we can achieve this. Science and 
manufacturers, everyone can provide us even better air quality. 
We know that. We can achieve that. It is one of those moving 
targets, however, that disturbs me as a former businessman 
that, you know, just because we can doesn't mean we should. 
Just because we can doesn't mean we should, and so I am looking 
to see if it is--if we are trying to get down to 13 micrograms 
per cubic meter today, well, what is the real goal? Where do we 
really want--why don't we just set--that is the real goal we 
are going to. Zero? Is it one? Once we start down that slippery 
slope, I don't understand where we are going because I am 
disturbed about us using--the EPA is using--science and Clean 
Air Act as a weapon as you described.
    Let me just, for all of you to understand what we are 
really quibbling over here, is this approximately 2 micrograms 
per cubic meter, and it is going to cost our economy billions 
of dollars to comply, but I know in this room so few people can 
relate to engineering terms or scientific terms. I love the use 
of epidemiology and toxicology and pulmonologists. I am just 
saying put it in relationship to where people can understand.
    In this room is approximately 70,000 cubic feet of space. 
What we are talking about at 2 micrograms per cubic meter, the 
amount of particulate, the weight of particulate matter, is the 
size of this piece of paper. This is smaller than a point on 
your eraser. That is what we are talking about here. That is 
the billions of dollars that we are going to put our economy 
through. Those are the people that we are going to have 
possibly fewer job opportunities for because we are chasing a 
piece that small, because we can.
    Should we? Can we afford that as a society when 24 million 
people are either unemployed or underemployed? When we are 
allowing a rogue agency to pursue that amount? Shame on us.
    I yield back my time.
    Mr. Whitfield. Thank you, Mr. McKinley. At this time I 
recognize the gentleman from California, Mr. Bilbray, for 5 
minutes.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Holmstead, I think you said it probably the most 
balanced approach and the fact is both sides may be in denial 
of a lot of things; one, the health impacts of pollutants, but 
also the big denial, and I will say this for my, the ranking 
member, the denial of the impact that regulation overall, and 
especially inappropriate regulation, has on not just the 
economy but the entire lifestyle and thus the health style of 
the general public. The impacts are there, and it seems like 
there is a real denial there, and I will just say this for 
those of you that don't know, everybody on this committee 
knows, I spent 6 years on the Air Resources Board in 
California. Ten years at the Air District.
    Mr. O'Mara, let me tell you something. I have been where 
you are. Can you come before us now and say that there hasn't 
been major mistakes made by the Federal Government in the 
implementation of the Clean Air Act?
    Mr. O'Mara. I think that most, I think there have been 
mistakes, and I think that many of them relate to, you know, 
the science not being followed, implementation schedules being 
moved around so there wasn't regulatory predictability for 
companies to make informed decisions.
    Mr. Bilbray. Or major strategies that were based on 
misperceptions and not science. You are too young to remember 
this, but some of us remember the Federal Government putting 
auto emission standards in place that basically forced Detroit 
to go to diesels during the '70s. The toxicity of diesel now is 
rated way over benzene, isn't it? So the Federal Government 
basically was pushing the private sector towards pollution with 
what was claimed to be an environmental regulation.
    Anybody here wants to stand up for the 1990 amendments to 
the Clean Air Act? Anybody here want to say that it was a great 
idea? Because----
    Mr. Holmstead. There were certainly parts of them that 
were.
    Mr. Bilbray. Parts of it. Yes, but the optionate mandate, 
the mandate that we put ethanol and MTBE in our fuel stream, we 
knew in California within months, we tried to say Federal 
Government, stay out of this. Now, the science might have been 
flawed, but what I saw was more the politics was flawed. 
Wouldn't you agree that there was forces that claimed to be 
environmentally driven that were driven by economic greed and 
the use of getting the Federal Government to force the general 
public to use products that they would have a monopoly on? Mr. 
O'Mara, wouldn't you agree with that?
    Mr. O'Mara. Yes, and I would agree with Mr. Holmstead. I 
mean, the vast majority was a very good bill, but I think there 
were individual sections that were of special interest.
    Mr. Bilbray. And wouldn't you agree that the mandate for 
MTBE and ethanol was an environmental mistake?
    Mr. O'Mara. We have concerns about the ethanol mandate 
today as well.
    Mr. Bilbray. OK. So my point being is that there is a lot 
of people that wrap themselves up into a claim of environmental 
strategy that does not reflect good science. I--then there is 
other agendas, and these hidden agendas are what I get upset 
about. While we are talking about reducing stationary sources 
here, and I will tell you something, the secondary visual issue 
with me, that boggles my mind because nowhere in the debate or 
discussion of the Clean Air Act did people talk about 
aesthetics. We talked about the public health.
    Would everybody agree that public health, protection of 
children, that was--Doctor, wasn't that the selling point of 
the Clean Air Act to the people and to the Congress of the 
United States? Either one of you doctors. It was the health 
issue. Right?
    Mr. Valberg. Correct.
    Mr. Bilbray. OK. Now we have got what appears to be mission 
creep, that while we are doing this, why don't we set this, and 
why don't we use this, and why don't we do this, and we forget 
about where it comes down to. This is where we get down to the 
gentleman at the end.
    How often when you are looking to build a road does your 
air district require that we consider the environmental impact 
of the no-project option? If you don't build that extra lane, 
what is going to be the congestion that is going to increase 
the pollution? How much weight under existing law is the no-
project option give when you consider it? Because I know they 
darn well make you look at the emissions while building that 
lane, but how much do they look at the benefits of reducing 
congestion?
    Mr. Herbst. It is relatively limited, the congestion 
reduction, in most of the projects. The no-build opinion, they 
consider it, but it is really, when they look at the air 
quality because that is not really a major issue for us, and 
that is something that we advocate because we, indeed, want to 
create cleaner air, you have to remove the congestion, but 
people on the other side say you are expanding the highway 
system.
    Mr. Bilbray. I would say this, and I will say this to both 
sides of the aisle and the leadership here. It is interesting 
that there are those who are quick to force the private sector 
to change the way you do business to reduce emissions, but when 
you have got major universities and studies showing government 
inappropriate traffic control could be as high as 22 percent of 
auto emissions, this is some place the Federal, that Federal 
Government, Democrats and Republicans, ought to recognize that 
the sin of omission, that requiring the private sector to do a 
lot of things but allowing the government to continue to force 
Americans to pollute and burn fuel they don't have to and 
ignoring the government's impact on pollution, to me shows we 
have no credibility on this issue. It looks like we are more 
anti-business than we are pro-environment, and I think we need 
to change that.
    I yield back, Mr. Chairman.
    Mr. Whitfield. The gentleman's time has expired.
    I want to thank the panel for joining us today. We 
appreciate your testimony. We have read all of the testimony, 
and your insights have been quite helpful and with that we will 
adjourn this hearing, and we will keep the record open for 10 
days for--so thank you all very much, and that will adjourn 
today's hearing.
    [Whereupon, at 10:19 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 81303.062
    
    [GRAPHIC] [TIFF OMITTED] 81303.063
    
    [GRAPHIC] [TIFF OMITTED] 81303.064
    
    [GRAPHIC] [TIFF OMITTED] 81303.065
    
    [GRAPHIC] [TIFF OMITTED] 81303.066
    
    [GRAPHIC] [TIFF OMITTED] 81303.067
    

                                 <all>

</pre></body></html>
